               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




                Vacant Land Parcels

                       Audit Report




                                         September 30, 2013

Report Number SM-AR-13-005
                                                            September 30, 2013

                                                          Vacant Land Parcels

                                                 Report Number SM-AR-13-005




BACKGROUND:
The U.S. Postal Service owns more             purchased between 12 and 24 years
than 8,000 facilities; they also own land     ago. Seven parcels were declared
nationwide and uses two types of capital      excess and have been previously listed
investments for land — advanced site          for sale; however, these properties have
acquisitions and land banking.                not been relisted since 2011 due to
Advanced site acquisitions involve the        market conditions. Four parcels have
purchase of land for new or expanding         never been listed. Although area
facilities. Land banking is the acquisition   operations are responsible for declaring
of land in anticipation of long-term future   excess land, area officials have not
needs.                                        declared the four vacant land parcels as
                                              excess because they want to hold the
The vice president, Facilities, has the       properties for future use — even though
authority to dispose of excess land.          there are no current plans. The Postal
Disposition may be by sale, exchange,         Service has 10 additional vacant land
or other means determined to be in the        parcels we did not review that may
best interest of the Postal Service. Our      present an opportunity to generate
objective was to assess the Postal            revenue through disposal.
Service’s opportunity to generate
additional revenue by disposing of            Given the financial challenges facing the
vacant land.                                  Postal Service and the unlikely
                                              expansion of operations, area
WHAT THE OIG FOUND:                           operations and Facilities management
The Postal Service has an opportunity         can generate additional revenue by
to generate about $16.9 million in            selling the vacant land parcels they
revenue by selling 11 vacant land             have no plans to use.
parcels, including three parcels in
Hawaii. Specifically, management could        WHAT THE OIG RECOMMENDED:
generate $2.6 million by selling three        We recommended area management
vacant land parcels and an additional         declare four vacant land parcels as
$14.3 million by selling eight vacant land    excess. We also recommended
parcels once market conditions improve.       Facilities management list three parcels
Holding these eight properties was            for sale now, develop a strategy to sell
based on their physical characteristics,      eight parcels when market conditions
locations, and the state of the local         improve, and evaluate 10 additional
market. The Postal Service did not have       vacant land parcels for disposal.
current plans to use any of the 11
vacant land parcels, which were               Link to review the entire report
September 30, 2013

MEMORANDUM FOR:            DEAN J. GRANHOLM
                           VICE PRESIDENT, PACIFIC AREA OPERATIONS

                           JO ANN FEINDT
                           VICE PRESIDENT, SOUTHERN AREA OPERATIONS

                           TOM A. SAMRA
                           VICE PRESIDENT, FACILITIES




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Audit Report – Vacant Land Parcels
                           (Report Number SM-AR-13-005)

This report presents the results of our audit of the U.S. Postal Service's Vacant Land
Parcels (Project Number 13YG017SM000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Monique P. Colter, director,
Supply Management and Facilities, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Vacant Land Parcels                                                                                                SM-AR-13-005



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Properties to Sell in Current Market ................................................................................ 1

Properties to Hold Until Market Conditions Improve ........................................................ 2

Properties to Evaluate ..................................................................................................... 4

Recommendations .......................................................................................................... 6

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 7

Appendix A: Additional Information ................................................................................. 9

   Background ................................................................................................................. 9

   Objective, Scope, and Methodology ............................................................................ 9

   Prior Audit Coverage ................................................................................................. 11

Appendix B: Monetary and Other Impacts..................................................................... 12

Appendix C: Management’s Comments ........................................................................ 14
Vacant Land Parcels                                                                                      SM-AR-13-005



Introduction

This report presents the results of our audit of the U.S. Postal Service's vacant land
parcels (Project Number 13YG017SM000). The objective of this self-initiated audit was
to assess the Postal Service’s opportunity to generate additional revenue by disposing
of vacant land. See Appendix A for additional information about this audit.

The Postal Service owns more than 8,000 facilities; it also own land nationwide and
uses two types of capital investments for land — advanced site acquisitions and land
banking. Advanced site acquisitions involve the purchase of land for new or expanding
facilities. Land banking is the acquisition of land in anticipation of long-term future needs
or expansion of services rather than for a specific project. The Postal Service has efforts
underway to right-size its mail processing and retail networks, which may decrease
unneeded properties.

The Facilities organization, led by the vice president of Facilities, has the authority to
dispose of property excess of Postal Service needs. Disposition may be by sale,
exchange, or by other means determined to be in the best interest of the Postal Service.

Conclusion

The Postal Service has an opportunity to generate about $16.9 million in additional
revenue by selling 11 vacant land parcels, including three parcels located in Hawaii.
Specifically, the Postal Service could generate $2.6 million in revenue by selling three
vacant land parcels in the current real estate market and an additional $14.3 million by
selling eight vacant land parcels once market conditions improve. The Postal Service
did not have current plans to use any of the 11 vacant land parcels we reviewed. Seven
parcels were declared excess and have been previously listed for sale; however, these
properties have not been relisted since 2011 due to market conditions. Four parcels
have never been listed. The Postal Service has 10 additional vacant land parcels we did
not review that may present an opportunity to generate revenue through disposal.

Properties to Sell in Current Market

The Postal Service could generate $2,658,636 by selling the Elk River, MN; Norman,
OK; and Islip, NY land parcels in the current market. ( See Table 1).

   The Elk River, MN property, located in the Western Area, was acquired in 2000. The
    Postal Service declared this property as excess. The last date the property was
    listed was April 2011. The property has a discounted fair market value of
                 The highest and best use for this property is to develop for commercial
    use.

1
 The discounted fair market value uses a discount rate that reflects the final rating to show the likelihood of sale and
a potential range of sales based on fair market value. We used the discounted fair market values to be conservative.
                                                          1
 Vacant Land Parcels                                                                                     SM-AR-13-005




       The Norman, OK property, located in the Southern Area, was acquired in 1990. The
        Postal Service has not declared this property as excess, and it has not previously
        been listed for sale. The property has a discounted fair market value of
        The highest and best use for this property is to develop for office or institutional use.
        The U.S. Postal Service Office of Inspector General (OIG) also has an ongoing audit
        examining the training conducted at the Norman, OK facility.

       The Islip, NY property, located in the Northeast Area, was acquired in 1999. The
        Postal Service has declared this property as excess. The last date the property was
        listed was August 2011. The property has a discounted fair market value of
                    The highest and best use for this property is to develop for residential
        use.

                            Table 1: Properties to Sell in the Current Market

     Postal                                                   Land          Discounted              Opinion of
                                              Year
     Service            Location                            Declared        Fair Market          Highest and Best
                                            Acquired
      Area                                                   Excess            Value                  Use2
 Western             Elk River, MN         2000             Yes                                  Commercial use
                                                                                                 Office or
 Southern            Norman, OK            1990             No
                                                                                                 institutional use
 Northeast           Islip, NY             1999             Yes                                  Residential use
                                                            Total             $2,658,636
Source: OIG analysis.


 Properties to Hold Until Market Conditions Improve

 The Postal Service has an opportunity to realize an additional $14,307,898 by selling
 the Kahului, HI; Cooper City, FL; Stuart, FL; Kihei, HI; Pahoa, HI; Incline Village, NV;
 Mendocino, CA; and Pinetop, AZ properties. Holding these eight properties was based
 on their physical characteristics, locations, and the state of the local market. ( See Table
 2).

       The Kahului, HI property, located in the Pacific Area, was acquired in 1989. The
        Postal Service has not declared this property as excess and has not previously listed
        the property for sale. The property has a discounted fair market value of

       The Cooper City, FL property, located in the Southern Area, was acquired in 1999 or
        2000. The Postal Service has declared this property as excess. The last date the
        property was listed was February 2010. The property has a discounted fair market
        value of


 2
     The highest and best use is the use of the property that would provide the highest value.


                                                              2
Vacant Land Parcels                                                           SM-AR-13-005



   The Stuart, FL property, located in the Southern Area, was acquired in 1999. The
    Postal Service has declared this property as excess. The last date the property was
    listed was November 2010. The property has a discounted fair market value of


   The Kihei, HI property, located in the Pacific Area, was acquired in 2001. The Postal
    Service has not declared this property as excess and has not previously listed the
    property for sale. The property has a discounted fair market value of

   The Pahoa, HI property, located in the Pacific Area, was acquired in 1989. The
    Postal Service has not declared this property as excess and has not previously listed
    the property for sale. The property has a discounted fair market value of

   The Incline Village, NV property, located in the Western Area, was acquired in 2001.
    The Postal Service has declared this property as excess. The last date the property
    was listed was June 2011. The property has a discounted fair market value of


   The Mendocino, CA property, located in the Pacific Area, was acquired in 1989. The
    Postal Service has declared this property as excess. The last date the property was
    listed was August 2011. The property has a discounted fair market value of


   The Pinetop, AZ property, located in the Western Area, was acquired in 2000. The
    Postal Service has declared this property as excess. The last date the property was
    listed was April 2011. The property has a discounted fair market value of




                                            3
Vacant Land Parcels                                                         SM-AR-13-005




             Table 2: Properties to Hold Until Market Conditions Improve

            Postal                                     Land   Discounted
                                              Year
            Service           Location               Declared Fair Market
                                            Acquired
             Area                                     Excess     Value
            Pacific      Kahului, HI        1989      No
                                            1999 or
            Southern Cooper City, FL                  Yes
                                            2000
            Southern Stuart, FL             1999      Yes
            Pacific      Kihei, HI          2001      No
            Pacific      Pahoa, HI          1989      No
                         Incline Village,
            Western                         2001      Yes
                         NV
            Pacific      Mendocino, CA      1989      Yes
            Western      Pinetop, AZ        2000      Yes
                                                      Total     $14,307,898
          Source: OIG analysis.


The Postal Service acquired these land parcels between 12 and 24 years ago in
anticipation of long-term future needs; however, the parcels remain unused. Further, the
Postal Service does not have current plans to use the 11 vacant land parcels. Seven of
the parcels have been declared excess and were previously listed for sale but have not
been relisted on the market since 2011. Area Operations management did not declare
the four remaining land parcels as excess because they wanted to keep the parcels for
future need; however, they gave no indication as to the specific need.

Properties to Evaluate

The Postal Service has 10 additional vacant land parcels we did not include in our
review. The Postal Service purchased these parcels between 1976 and 2000. Based on
the results of our review of the 11 judgmentally selected vacant properties, there may
be an opportunity for the Postal Service to generate revenue by disposing of these 10
properties. (See Table 3).




                                             4
Vacant Land Parcels                                                            SM-AR-13-005




                                Table 3: Properties to Evaluate

                  Postal                                            Land
                  Service                               Year      Declared
                   Area                Location       Acquired     Excess
               Western            Apache Junction, AZ 2000        Yes
               Western            Central, AZ         2000        No
               Pacific            Tehachapi, CA       1993        Yes
               Great Lakes        Marengo, IN         2000        Yes
               Great Lakes        Kokomo, IN          1998        No
               Southern           Hilton Head, SC     1996        No
               Southern           Garland, TX         1976        No
               Northeast          Loiza, PR           2000        Yes
               Northeast          Viequez, PR         2000        Yes
               Northeast          San Juan, PR        1998        Yes
              Source: OIG analysis.

Postal Service policy is to dispose of excess real property under the terms and
conditions that provide the greatest value to the Postal Service. Disposition may be by
sale, exchange, outlease, or by other means determined to be in the best interest of the
Postal Service. The Facilities organization is responsible for coordinating with the local
district and area office when disposing of excess property. Postal Service Facilities
officials stated that they were aware of these properties and evaluated many for
disposition. Officials had previously listed some of these properties for sale and
indicated that properties would be relisted for sale when deemed appropriate.

Given the financial challenges facing the Postal Service and the unlikely expansion of
operations, Area Operations and Facilities management can achieve an organizational
initiative to generate additional revenue by selling prime vacant land parcels now and
developing a strategy to sell other unused parcels as real estate market conditions
improve. See Appendix B for monetary and other impacts.




                                                 5
Vacant Land Parcels                                                              SM-AR-13-005




Recommendations

We recommend the vice president, Southern Area Operations:

1. Declare the land parcel located in Norman, OK as excess.

We recommend the vice president, Pacific Area Operations:

2. Declare the three land parcels located in Kahului, HI; Kihei, HI; and Pahoa, HI as
   excess.

We recommend the vice president, Facilities:

3. List the Elk River, MN; Norman, OK; and Islip, NY parcels for sale.

4. Evaluate the eight parcels in Kahului, HI; Cooper City, FL; Stuart, FL; Kihei, HI;
   Pahoa, HI; Incline Village, NV; Mendocino, CA; and Pinetop, AZ and develop a
   strategy to sell the properties when market conditions improve.

5. Evaluate the 10 additional parcels in Apache Junction, AZ; Central, AZ; Tehachapi,
   CA; Marengo, IN; Kokomo, IN; Hilton Head, SC; Garland, TX; Loiza, PR; Viequez,
   PR; and San Juan, PR to determine whether they are suitable for sale.

Management’s Comments

Management did not state whether they agreed or disagreed with the findings,
recommendations and monetary impact in their initial response. In subsequent
correspondence, management did not state whether they agreed or disagreed with the
findings. Additionally, management stated that they cannot agree or disagree to the
monetary impact until Facilities takes the properties to market, via auction or listing and
determine what the market is willing to bear. Management did not agree or disagree
with recommendation 1, disagreed with recommendation 2, and agreed with
recommendations 3, 4, and 5.

Management stated that they cannot agree or disagree with recommendation 1 until
Facilities has finalized its evaluation to determine whether the land parcel in Norman,
OK is more valuable as a separate parcel or as part of larger sale. They will complete
this analysis on or before June 30, 2014. Management also stated as of August 28,
2013, the Norman, OK parcel was declared as no longer needed.

Management, disagreed with recommendation 2, stating that the Kahului, HI property is
an airport site currently being used for postal operations in support of the entire island of
Maui. Additionally, the Pahoa, HI and Kihei, HI parcels are being held for required
expansion needed to support increased volume.




                                              6
Vacant Land Parcels                                                             SM-AR-13-005




Regarding recommendation 3, management agreed to list the Elk River, MN; Norman,
OK; and Islip, NY parcels for sale. Facilities is preparing the Elk River, MN and Islip, NY
properties to be part of the next auction package. Facilities will evaluate the Norman,
OK property to determine whether it is more valuable as a separate parcel or as part of
a larger sale. If determined that marketing the property as a separate parcel is in the
best interest of the Postal Service, Facilities will take appropriate steps to prepare for
the sale. They will implement this recommendation by June 30, 2014.

Management agreed with recommendation 4 to develop a strategy to sell properties,
except those located in Hawaii as referenced in recommendation 2. Management stated
that several properties have been previously listed for sale, and all properties will be
evaluated to determine the overall best-selling strategy. Facilities has already
developed a strategy for each property. Management did not provide a target
implementation date, because they deemed this recommendation to be complete.

Management also agreed with recommendation 5 and stated that the 10 additional
parcels were previously identified and evaluated for sale. Facilities will continue to
evaluate the land parcels to determine the best overall strategy to either prepare them
to be part of the next auction package or hold the properties until market conditions
improve. Management noted that three parcels were identified as not marketable.
Management did not provide a target implementation date, because they deemed this
recommendation to be complete.

Management agreed that optimization of vacant land is an important initiative within the
Postal Service and that if all properties were available in markets that are active, such
properties would generate millions of dollars of revenue. Management believe they have
been proactive in implementing a process to identify parcels that are no longer needed.
Specifically, Facilities has implemented a comprehensive program that identifies and
monitors its vacant land portfolio based on operational need and market demand
including an auction program, which is being used to reintroduce many of these
properties to the market. See Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendations 1, 3, 4,
and 5; however, we disagree with management’s response to recommendation 2.
Regarding recommendation 2, the OIG believes that given its financial challenges, it is
unlikely the Postal Service will build new facilities on the Kihei and Pahoa, HI properties.
Additionally, the current structure on the Kahului, HI property where mail is received
from the airlines and tendered to highway contract route carriers is a tent. The Postal
Service purchased this property 24 years ago. There are no records that the Postal
Service attempted to build a structure on this property until 2005, and the building was
never constructed due to lack of funding.



                                             7
Vacant Land Parcels                                                           SM-AR-13-005




The Postal Service purchased the Kihei and Pahoa, HI, properties 12 and 24 years ago,
respectively. As is the case with the Kahului property, there are no records of an attempt
to build a facility on the Pahoa property until 2005. The building was never constructed
due to lack of funding. Even though operations at both the Kihei Carrier Annex and the
Pahoa - Hilo Rd #13 Post Office have outgrown their current facilities, it is unlikely the
Postal Service will construct replacement facilities in view of its current financial
condition. We view the disagreement on significant recommendation 2 as unresolved
but do not plan to pursue it through the formal audit resolution process.

The OIG considers recommendations 1, 3, 4, and 5 significant, and therefore requires
OIG concurrence before closure. Management deemed recommendations 4 and 5
closed based on their responses; however, they need to submit documentation to
support their decision in disposing each property. Consequently, the OIG requests
written confirmation when corrective actions are completed. These recommendations
should not be closed in the Postal Service’s follow-up tracking system until the OIG
provides written confirmation that the recommendations can be closed.




                                            8
Vacant Land Parcels                                                                                  SM-AR-13-005




                                 Appendix A: Additional Information

Background

The Postal Service owns more than 8,000 facilities; it also owns land nationwide and
uses two types of capital investments for land — advanced site acquisitions and land
banking. Advanced site acquisitions involve the purchase of land for new or expanding
facilities. Land banking is the acquisition of land in anticipation of long-term future needs
or expansion of services rather than for a specific project. The purpose of land banking
is to gain control of land in high cost or land scarce areas when it becomes available.
The vice president, Facilities has the authority to acquire land up to $5 million. All
approved projects are funded by headquarters, not locally.

The manager of the organization responsible for the facility is responsible for declaring
land excess to the needs of the Postal Service. The Facilities organization, led by the
vice president of Facilities, has the authority to dispose of property excess to Postal
Service needs. Disposition may be by sale, exchange, or by other means determined to
be in the best interest of the Postal Service.

Objective, Scope, and Methodology

Our objective was to assess the Postal Service’s opportunity to generate additional
revenue by disposing of vacant land. To accomplish our objective, we:

   Used the Electronic Facilities Management System (eFMS) and identified 341
    properties listed as containing no buildings.

   Used an Internet website3 to view maps of the 341 properties and identified 28
    potential unused land parcels without structures.

   Sent questionnaires and conducted interviews with Postal Service officials and
    eliminated six of the 28 properties from review based on input received.4

   Judgmentally selected 12 land parcels to obtain appraisals based on potential value.
    One property was removed when real estate experts were not able to determine
    whether the property could be sold.

   Determined the salability and fair market value of the 11 parcels using real estate
    experts.

   Calculated the potential monetary benefits from the sale of these land parcels.


3
 Google Maps.
4
 Two properties were listed for sale. One was sold. One property was a parking lot. Two properties had structures
built on them.



                                                         9
Vacant Land Parcels                                                         SM-AR-13-005



We conducted this performance audit from January 2013 through September 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on August 29, 2013, and included their
comments where appropriate.

We assessed the reliability of eFMS data by confirming information with Facilities
Service Office and area and district office personnel. We also compared eFMS data
with information obtained by the real estate appraisers. We determined that the data
were sufficiently reliable for the purposes of this report.




                                           10
Vacant Land Parcels                                                           SM-AR-13-005



Prior Audit Coverage

                                                           Final
                                                                          Monetary
            Report Title            Report Number         Report
                                                                           Impact
                                                           Date
  Land Optimization - Northern
                                     DA-AR-12-003       9/28/2012        $2,931,250
  Virginia District
  Report Results:
  The Postal Service can improve procedures for identifying and disposing of excess
  land space. Two of the six Postal Service-owned properties reviewed in the
  Northern Virginia District, the Dulles Processing and Distribution Center (P&DC)
  and land slated for the Ashburn Main Post Office, have excess land space of
  442,570 square feet (SF), or about 17 percent of the exterior space of those
  properties. By initiating disposal action for excess land space for these two
  properties, the Postal Service has a one-time opportunity to realize a revenue
  increase of at least $2,931,250 in the Northern Virginia District. The Postal Service
  initiated the process of selling the Ashburn property on October 12, 2011.
  Management disagreed with our report recommendation and the potential revenue
  that could be generated from the sale of excess land at the Ashburn site and the
  Dulles P&DC.

  Land Optimization – Central
                                        DA-AR-12-001        9/19/2012       $42,337,385
  Illinois District
  Report Results:
  The Postal Service can improve procedures for identifying and disposing of excess
  land space. Ten properties have excess land space of 4,892,583 SF based on
  Postal Service policy. This excess land represent 49 percent of the total square
  footage of the sites visited. By initiating disposal action for excess land space, the
  Postal Service has a one-time opportunity to realize at least $42,337,385 in
  increased revenue in the Central Illinois District. Management disagreed with two of
  the three report recommendations. Management also disagreed with the
  methodology we used to calculate the amount of excess land and the potential
  revenue that could be generated from the sale of excess land space.




                                            11
Vacant Land Parcels                                                                                 SM-AR-13-005




                            Appendix B: Monetary and Other Impacts

                                              Monetary Impact

         Recommendation                            Impact Category                          Amount
               3                                 Increased Revenue5                         $2,658,636

                                                 Other Impact

         Recommendation                        Impact Category                            Amount
               4                          Potential Additional Revenue6                  $14,307,898

We calculated the monetary and other impact using the fair market value for each
property. The fair market value of each land parcel was obtained by performing a Monte
Carlo simulation. The Monte Carlo simulation shows the odds for distribution of
outcomes on the sale price of the property given the market conditions. The simulation
created a distribution of values if each property were sold 5,000 times in current market
conditions. The discounted fair market value uses a discount rate that reflects the
market conditions to represent a minimum obtainable value.

We calculated the $2,658,636 monetary impact for increased revenue using the
discounted fair market value for the three properties the Postal Service should sell (See
Table 4). We used the discounted fair market value to be conservative in our
calculation.

                             Table 4: Calculation of Monetary Impact

                  Postal                                                       Discounted
                                                        Fair Market
                  Service     Location                                         Fair Market
                                                           Value
                   Area                                                           Value
                 Western   Elk River, MN
                 Southern Norman, OK
                 Northeast Islip, NY
                           Total                             $3,275,000           $2,658,636
                Source: OIG analysis.

We calculated the $14,307,898 of other impact for potential additional revenue using the
discounted fair market value for the eight properties the Postal Service should sell once
real estate market conditions improve. (See Table 5).



5
  Increased revenue from existing functions or revenue generated from new sources, perhaps because of
implementing a new marketing initiative.
6
  Revenue the Postal Service could potentially generate for goods delivered or services rendered based on
suggested improvements.


                                                        12
Vacant Land Parcels                                                             SM-AR-13-005



                           Table 5: Calculation of Other Impact

              Postal                                              Discounted
                                                   Fair Market
              Service              Location                       Fair Market
                                                      Value
               Area                                                  Value
            Pacific         Kahului, HI
            Southern        Cooper City, FL
            Southern        Stuart, FL
            Pacific         Kihei, HI
            Pacific         Pahoa, HI
            Western         Incline Village, NV
            Pacific         Mendocino, CA
            Western         Pinetop, AZ
                            Total                  $17,980,000    $14,307,898
           Source: OIG analysis.




                                              13
Vacant Land Parcels                                       SM-AR-13-005



                      Appendix C: Management’s Comments




                                     14
Vacant Land Parcels        SM-AR-13-005




                      15
Vacant Land Parcels        SM-AR-13-005




                      16
Vacant Land Parcels        SM-AR-13-005




                      17
